Case: 19-10261

Document: 00515734326

Page: 1

Date Filed: 02/05/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
February 5, 2021

No. 19-10261

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Blake Taylor,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-231-1
Before Stewart, Higginson, and Wilson, Circuit Judges.
Stephen A. Higginson, Circuit Judge:*
Blake Taylor appeals his above-guidelines sentence following his
guilty plea to one count of attempted bank robbery and one count of using,
carrying, brandishing, and discharging a firearm during and in relation to a
crime of violence. We AFFIRM.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Blake Taylor v. United States
Petition Appendix

1a

Case: 19-10261

Document: 00515734326

Page: 2

Date Filed: 02/05/2021

No. 19-10261

I.
Codefendants Taylor and Desmond Wells were charged in a twocount indictment for attempted bank robbery, in violation of 18 U.S.C.
§ 2113(a) and (d), and using, carrying, brandishing, and discharging a firearm
during and in relation to a crime of violence, in violation of 18 U.S.C.
§ 924(c)(1)(A)(iii). Taylor pleaded guilty to both counts without a plea
agreement.
In his plea, Taylor admitted that on July 19, 2018, he and Wells
entered the Veritex Community Bank in Fort Worth, Texas, while wearing
gloves and dark clothing to conceal their identities. Once inside, Wells
demanded money from a bank teller. Seconds later, Taylor began firing a
handgun, shooting and injuring three employees. Taylor and Wells then fled
the bank without obtaining any money.
A witness photographed Taylor and Wells driving away in a Fiat.
Police traced the car’s registration to a residence shared by Taylor and his
mother, at which they found the vehicle in an adjacent driveway. A search of
the residence revealed a pistol and ammunition matching the shell casings
left at the bank, as well as dark clothing and latex gloves matching those worn
by Taylor and Wells. Taylor was arrested and subsequently confessed that he
and Wells robbed the bank. Wells was arrested the next day. He told officers
that Taylor had asked him to assist in a bank robbery, had planned the robbery
and told him what to do, had supplied the dark clothing and gloves, and had
carried the pistol.
The Presentence Investigation Report (PSR) calculated Taylor’s base
offense level as 20 for the attempted bank robbery count, and applied
enhancements totaling ten levels, including a two-level leadership role
enhancement under U.S.S.G. § 3B1.1(c). The PSR also recommended a
three-level reduction for acceptance of responsibility pursuant to U.S.S.G.

Blake Taylor v. United States
Petition Appendix

2

2a

Case: 19-10261

Document: 00515734326

Page: 3

Date Filed: 02/05/2021

No. 19-10261

§ 3E1.1, yielding a total offense level of 27. Taylor’s criminal history category
was IV, which resulted in an advisory guidelines range of 100 to 125 months
for the attempted robbery count. The firearm count carried a mandatory
minimum ten-year consecutive sentence. See 18 U.S.C. § 924(c)(1)(A)(iii).
The PSR also advised that an upward departure may be warranted based on
the seriousness of the injuries sustained by the three bank employees
pursuant to U.S.S.G. § 5K2.2, or an upward variance based on Taylor’s
extensive criminal history and the other statutory factors pursuant to 18
U.S.C. § 3553(a).
Taylor objected to the leadership enhancement and argued that
Wells’s statements to the police officers were unreliable because Wells had
been deemed incompetent to stand trial.1 Taylor also requested disclosure of
Wells’s competency evaluation, which was denied. In a pre-sentencing order,
the district court tentatively overruled Taylor’s objection to the leadership
enhancement and disagreed with the acceptance of responsibility reduction
“because of his conduct in frivolously denying that there is reliable evidence
establishing his leadership.” The district court also indicated that a term of
imprisonment significantly above the guidelines range would be appropriate.
After additional argument at sentencing, the district court again
overruled Taylor’s objections and reiterated the conclusions stated in its presentencing order. As to the leadership adjustment, the court noted that even
without considering Wells’s testimony, “other evidence”—including the
handgun, dark clothing, latex gloves, and car found at Taylor’s residence and

1

Wells was subsequently deemed competent, pleaded guilty to attempted bank
robbery, and was sentenced to 210 months’ imprisonment. Wells’s appeal of his conviction
and sentence remains pending. See Judgment, United States v. Wells, No. 4:18-cr-231-2,
ECF 140 at 1 (N.D. Tex., Oct. 16, 2020), appeal docketed, No. 20-11078 (5th Cir. Oct. 23,
2020).

Blake Taylor v. United States
Petition Appendix

3

3a

Case: 19-10261

Document: 00515734326

Page: 4

Date Filed: 02/05/2021

No. 19-10261

Taylor’s subsequent confession—was “sufficient for the conclusion to be
reached that Taylor was in charge of and did formulate the plan.”2 The
district court also declined to apply the acceptance of responsibility
deduction because Taylor’s “denial that he was the leader is a frivolous
denial.” The court then calculated the total offense level for the attempted
robbery count to be 30 (instead of 27), which yielded an advisory
imprisonment range of 135 to 168 months, to be followed by a mandatory
minimum of ten years (120 months) for the firearm count.
Following Taylor’s allocution, presentation of evidence including
video from inside the bank of the shooting, testimony on behalf of the injured
victims, and additional argument as to whether an above-guidelines sentence
was appropriate, the court varied upwards and imposed a sentence of 540
months’ imprisonment: 180 months for the attempted robbery and a
consecutive sentence of 360 months for the firearm count. The district court
specifically referred to Taylor’s extensive criminal history and escalating
offenses since age 15 to explain these sentences, concluding that “there is a
serious risk that he would continue to engage in his activities . . . if he were to
be released after serving no more than the guideline range” and that he
needed to be removed from society “until he’s well up in years[.]”
The district court added:
[This] is the same sentence I would be imposing even if
[c]ourt had not denied acceptance of responsibility of
reduction . . . and even if the [c]ourt had sustained
objection relative to the leadership role. Those factors

2

the
the
the
are

The district court also rejected Taylor’s argument that Wells’s competency had
“any significance to whether or not he would be telling the truth about the facts that
determine the leadership role,” which was corroborated by the evidence found at Taylor’s
residence.

Blake Taylor v. United States
Petition Appendix

4

4a

Case: 19-10261

Document: 00515734326

Page: 5

Date Filed: 02/05/2021

No. 19-10261

really irrelevant to the decision the [c]ourt’s made as to what
the sentence should be in this case.
Judgment was entered on February 24, 2019. This appeal timely
followed.
II.
We review the reasonableness of a sentencing decision in two phases.
Gall v. United States, 552 U.S. 38, 51 (2007). First, we must “ensure that the
district court committed no significant procedural error, such as failing to
calculate (or improperly calculating) the Guidelines range.” Id. If there is no
procedural error, or if the procedural error is harmless, we review the
substantive reasonableness of the imposed sentence for abuse of discretion.
United States v. Delgado-Martinez, 564 F.3d 750, 751 (5th Cir. 2009) (citing
Gall, 552 U.S. at 51). We review the district court’s application of the
guidelines de novo and its factual findings for clear error. Id. at 751.
III.
Taylor argues that the district court erred in imposing the leadership
role enhancement and in denying the acceptance of responsibility deduction.
As to the former, Taylor argues that the district court erroneously relied on
Wells’s statements to apply the two-level enhancement. As to the latter, he
argues that the district court erroneously denied him the deduction because
he objected only to the legal characterization of his leadership role, and not
the facts concerning his role in the robbery. See United States v. PatinoCardenas, 85 F.3d 1133, 1136 (5th Cir. 1996); U.S.S.G. § 3E1.1, cmt. n.1(A).
We need not decide whether the district court erred in imposing either
adjustment because any such error was harmless. Here, the government
“convincingly demonstrates both (1) that the district court would have
imposed the same sentence had it not made the error, and (2) that it would

Blake Taylor v. United States
Petition Appendix

5

5a

Case: 19-10261

Document: 00515734326

Page: 6

Date Filed: 02/05/2021

No. 19-10261

have done so for the same reasons it gave at the prior sentencing.” United
States v. Ibarra-Luna, 628 F.3d 712, 714 (5th Cir. 2010).
The district court unequivocally stated that it would impose the same
sentence even if it erred in its guidelines range calculation. Id.; see also United
States v. Castro-Alfonso, 841 F.3d 292, 298–99 (5th Cir. 2016). Moreover, the
district court provided extensive reasons for imposing Taylor’s aboveguidelines sentence based on Taylor’s prior offenses and to protect the public
from further crimes, none of which was contingent on the enhancements
challenged here. See United States v. Redmond, 965 F.3d 416, 421 (5th Cir.
2020) (“[T]he court’s sentence was based on ‘independent factors,’
particularly [the defendant’s] previous conviction and his pending [state]
charge. . . . Based on the transcript, it is clear that the district court would
have imposed the same above-Guidelines . . . sentence . . . for the same
reasons.” (quoting Ibarra-Luna, 628 F.3d at 719)), petition for cert. filed, No.
20-6631 (U.S. Dec. 10, 2020).
Taylor counters that the errors were not harmless because the district
court might nonetheless sentence him to a lesser term of imprisonment on
remand if his guidelines were fixed to a lower starting point. Taylor’s
assertion is unavailing, see id. at 421–22, and is further belied by the district
court’s statement that even a 540-month sentence was “conservative.”
Taylor next contends the district court erroneously disregarded the
guidelines because at one point the district court referred to the disputed
calculations as “irrelevant” to its sentencing decision, and thus the imposed
sentence was substantively and procedurally unreasonable. Taylor further
urges that the district court failed to consider “a factor that should have
received significant weight”—namely, the correct guidelines range. See
United States v. Chandler, 732 F.3d 434, 437 (5th Cir. 2013); 18 U.S.C.
§ 3553(a)(4).

Blake Taylor v. United States
Petition Appendix

6

6a

Case: 19-10261

Document: 00515734326

Page: 7

Date Filed: 02/05/2021

No. 19-10261

While a sentencing court errs if it neglects to consider the guidelines
at all, see Gall, 552 U.S. at 51, that is not what occurred here. The record
shows the district court considered the PSR, addressed Taylor’s objections,
calculated a guidelines range, and received evidence and additional argument
before imposing an above-guidelines sentence. Nor does Taylor argue on
appeal—or the record indicate otherwise—that the district court relied on an
irrelevant or improper factor or erred in balancing the sentencing factors
pursuant to 18 U.S.C. § 3553(a) when it varied upwards. See United States v.
Smith, 440 F.3d 704, 708–09 (5th Cir. 2006); Redmond, 965 F.3d at 423.3
Next, Taylor contends that the district court erred in denying his
motions to disclose Wells’s competency report. Taylor claims that the
district court’s denial violated his right to due process at sentencing and the
requirements of Brady v. Maryland, 373 U.S. 83 (1963). Specifically, he
contends that Wells’s competency report may have contained relevant
impeachment information.
However, Taylor at most speculates that despite the district court’s
ruling, after in camera review, that the “contents of the report . . . would not
benefit Taylor,” the competency report nonetheless contained impeachment
evidence relevant—and favorable—to his sentencing. In addition to this
being conjecture, the district court had observed Wells and, additionally,
confirmed that its sentencing determination rested on independent evidence
corroborating Wells’s statements.

3

Taylor preserved his challenge to the substantive reasonableness of his sentence
by advocating for a within-guidelines sentence and objecting to the court’s upward variance
at sentencing. See Holguin-Hernandez v. United States, 140 S. Ct. 762, 766–67 (2020). On
appeal, Taylor does not argue that the imposed sentence is contrary to 18 U.S.C. § 3553(a),
or that his consecutive 360-month sentence for the firearm count is otherwise
unreasonable, thereby abandoning any such argument on appeal. See United States v. Still,
102 F.3d 118, 122 n.7 (5th Cir. 1996); Beasley v. McCotter, 798 F.2d 116, 118 (5th Cir. 1986).

Blake Taylor v. United States
Petition Appendix

7

7a

Case: 19-10261

Document: 00515734326

Page: 8

Date Filed: 02/05/2021

No. 19-10261

Lastly, Taylor asserts he is preserving arguments that bank robbery
under § 2113(a) is not categorically a crime of violence under § 924(c)(3);
that § 2113(d) is not categorically within the definition of a § 924(c)(3) crime
of violence; and that the first and second paragraphs of § 2113(a) are
indivisible. As Taylor concedes, these arguments are foreclosed by our
court’s precedents. See United States v. Smith, 957 F.3d 590, 593–94 (5th
Cir.), cert. denied, 2020 WL 6551848 (U.S. Nov. 9, 2020) (No. 20-5871);
United States v. Butler, 949 F.3d 230, 234 (5th Cir.), cert. denied, 141 S. Ct.
380 (2020).
IV.
For the foregoing reasons, the district court’s judgment of conviction
and sentence is AFFIRMED.

Blake Taylor v. United States
Petition Appendix

8

8a

